U.S. Department of                       The Inspector General    Office of Inspector General
Transportation                                                    Washington, D.C. 20590

Office of the Secretary
of Transportation




May 21, 2003



The Honorable Don Young
Chairman
Committee on Transportation and Infrastructure
House of Representatives
Washington, DC 20515

Dear Chairman Young:

This is in response to your recent letter expressing the Committee’s continued
interest in the Central Artery/Tunnel Project (Project) in Boston. Congressman
Michael E. Capuano of the Massachusetts’ 8th District requested that this office
review efforts to recover costs caused by design errors. You asked that we keep
you informed about our review concerning these costs.

Recently, significant attention has been focused on opportunities to recover costs
paid for change orders that might have been caused by design errors or omissions
on the part of design and consulting contractors. In order to prevent delays and
cost increases due to delays, the project approves change orders and pays the
construction contractor for the work before determining whether the change was
required due to a design error. The project has an opportunity to recover some of
these costs from the design contractor if a subsequent review determines that the
change order was required to correct a design error or omission.

To date, we have found that both the Federal Highway Administration (FHWA)
and the Project have begun taking steps to strengthen their efforts to ensure that
the cost recovery program successfully recovers costs paid for changes that were
due to design errors. This is needed because past cost recovery efforts have been
anemic and have not resulted in substantial recoveries—eight years of cost
recovery efforts have yielded only $30,000 in recoveries from a single consultant.
Efforts have also not been timely—76 items have been under review from 2 to 7
years.
                                                                                   2


The Project recently revised its evaluation process by creating a Task Force,
headed by a retired Probate Court Judge, to review all questionable change orders,
including those identified in a recent series of Newspaper articles. FHWA’s
efforts are aimed at ensuring that the project properly resolves the backlog of
existing cost recovery items, as well as new cost recovery items, in a timely
manner. Specifically, the FHWA Division Office will (1) concur in the project’s
resolution of each cost recovery item, and (2) receive quarterly status reports from
the project about the backlog of cost recovery items. FHWA has also established
a task force to review the Cost Recovery Process.

In the last couple of months, the Governors Office, the State Auditor, and the
Massachusetts Inspector General (State IG) have also indicated that they want to
play a role in the process. Currently, however, the Governor has a limited role in
determining how the cost recovery process will be organized and staffed because
the process is established by an independent State Agency--the Massachusetts
Turnpike Authority (Authority)--and approved by FHWA. The Governor has a
limited institutional role because, although the Authority’s Board of Directors is
appointed by the Governor, once appointed, the Board operates independently.

The credibility of the current process is also open to question because many of the
pending and closed questionable change orders involve Bechtel/Parsons-
Brinkerhoff, the Project’s design engineer and construction manager. Because the
Project and Bechtel/Parsons-Brinkerhoff have operated as partners to design and
build the Central Artery/Tunnel, a legitimate issue exists regarding whether the
Project will be able to maintain organizational independence and objectivity when
reviewing questionable change orders.            Adequate controls to ensure an
independent and credible Cost Recovery Program are important not only to ensure
that costs are recovered when appropriate, but also to provide assurance to
taxpayers that the process is credible. To provide this assurance, we believe it is
essential that the various parties, including the Governor’s office, work together to
agree on:

    · A proper governance framework to provide independent, credible executive
      direction;

    · An appropriate review methodology to provide the engineering, forensic
      accounting/auditing, and legal analyses to document any design errors and
      the resulting costs; and

    · The proper mix of skills, including engineering, accounting, and legal
      expertise related to construction change orders in order to apply the
      methodology and resolve questionable change orders appropriately.


Control No. 2003-0882
                                                                                    3


Because FHWA, the Project, and several State entities are in the process of
strengthening and revising the Cost Recovery Program, we will defer, for the time-
being, a detailed review of the Cost Recovery Program. Instead, given the
continuing efforts to clarify and finalize a credible, robust process to resolve these
cost recovery items, we plan to monitor these efforts and to keep your office
informed of the progress being made.

We are enclosing a copy of a memorandum we recently sent to FHWA
Administrator Mary Peters which further describes some of the actions being
taken and highlights three issues that deserve attention by the FHWA’s
Massachusetts Division Office—(1) the limited recoveries to date, (2) the lack of
timely resolution of items, and (3) the potential to address additional items.

If I can answer any questions or be of further assistance, please feel free to contact
me at (202) 366-1959, or my Deputy, Todd J. Zinser, at (202) 366-6767.

Sincerely,



Kenneth M. Mead
Inspector General

Enclosure




Control No. 2003-0882
                                                                                                1




           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Opportunities to Recover Costs Paid to             Date:    April 18, 2003
           Contractors, but Caused by Design Errors on the
           Central Artery/Tunnel Project


  From:    Kenneth M. Mead                                         Reply to
                                                                   Attn. of:   JA-30
           Inspector General

    To:    Mary E. Peters
           Federal Highway Administrator

           We have received requests from Congressman Michael E. Capuano of
           Massachusetts’ 8th District and Congressman Don Young, Chairman, House
           Committee on Transportation and Infrastructure, that we review the reasons
           behind some of the cost increases on the Central Artery/Tunnel Project (Project).
           Recently, significant attention has been paid to opportunities to recover costs paid
           to contractors for change orders that might have been caused by engineering
           design errors or omissions on the part of Bechtel/Parsons-Brinkerhoff Joint
           Venture (Bechtel), the Project’s preliminary design engineer and construction
           manager.

           FHWA has recently taken several actions to strengthen the Cost Recovery
           Program, including requesting the Project to prepare an action plan with key
           milestones to resolve the cost recovery items. In addition, several State
           organizations are looking into this issue including the Governor's office, the
           State’s Office of Inspector General, and the State Auditor's Office.          This
           reemphasis is needed because, although the Project and FHWA have had a cost
           recovery program in place since 1994, it has yielded little in actual recoveries.
           Eight years of cost recovery efforts have led to only $30,000 in recoveries from a
           single consultant. The process has also not resulted in the timely resolution of
           change orders referred to the Cost Recovery Program--76 items are between 2 and
           7 years old.

           Control No. 2003-0882
                                                                                    2

As a result of the current reviews and oversight efforts by your office and State
entities, we will defer for the time being our detailed review of the Cost Recovery
Program. We plan on monitoring FHWA’s efforts and progress.

Opportunity to Recover Costs Due to Design Errors or Omissions

Cost recovery offers an important opportunity to reduce costs on a project that has
been cited as an egregious example of runaway costs. Because the recoveries are
returned to the Project and, if FHWA participated in the change order, to the
State’s Federal aid account, it is important to aggressively pursue cost recovery
efforts, which would benefit both the State and Federal Government.

We recognize the strong emphasis you have placed on improving oversight
practices of FHWA Division Offices since being appointed FHWA Administrator.
In that regard, your March 14, 2003 letter to the Chairman of the Massachusetts
Turnpike Authority (MTA) cited several steps that FHWA is taking to strengthen
the Project’s Cost Recovery Program in order to protect Federal interests. The
Cost Recovery Program, which FHWA approved in 1994, allows the Project to
approve the change order, pay the consultant contractor for the work, and seek
reimbursement from FHWA, before determining whether the change was due to a
design error.

Your letter noted that the Cost Recovery Program was designed to make sure
questionable change orders were evaluated and resolved before FHWA allowed
the contract to be formally closed. The letter also cited recent changes to the Cost
Recovery Program that call for the Division Office to (1) concur in the Project’s
resolution of each cost recovery item and (2) receive quarterly status reports from
the Project about the backlog of cost recovery items. Finally, your letter noted that
FHWA is taking additional oversight actions to ensure that the Project’s Cost
Recovery Program will be successful. To assist in that effort, you asked the
Project to prepare an action plan that includes key milestones to resolve the cost
recovery items.

In addition to your efforts, several different entities in the State are reviewing the
change orders to determine whether improper payments were made. As a result,
we believe it would be counter-productive for this office to do a detailed review of
the Cost Recovery Program at this time. Therefore, we will defer, for the time
being, to FHWA’s efforts to ensure that the Project’s Cost Recovery Program
operates effectively. We plan to monitor FHWA efforts in this area to ensure that
the Project implements an effective Cost Recovery Program.

Your attention to this issue also provides an opportunity to make further progress
in efforts to improve Division Office oversight. In that regard, we believe three
                                                                                3

issues deserve attention by the Massachusetts Division Office.      According to
Project documents:

· Eight years of cost recovery efforts have led to only $30,000 in recoveries from
  a single consultant, even though 76 change orders, involving $53.7 million
  have been resolved to date. The $30,000 represents less than one-tenth of 1
  percent (.056 percent) of the amount in question. This is a very low recovery
  rate on a Project of this size and complexity.

· The process has not resulted in the timely resolution of many change orders
  that have been referred to the Cost Recovery Program. Currently, the Project
  has approximately 295 unresolved change orders, valued at $188 million. Of
  these, the Project identified 76 items that are between 2 and 7 years old.
  Timely resolution of change orders is important, because the longer the issues
  remain unresolved, the more difficult it becomes for the Project to determine
  whether the change orders were caused by design errors.
· The Cost Recovery Program may not be evaluating some change orders that
  might be due to design errors. To date, the Project’s Cost Recovery Program
  has been assigned about 371 change orders suspected of being caused by
  design errors. In total, these change orders are valued at about $241 million.
  However, the Massachusetts Office of the Inspector General recently issued a
  report noting that its audits had identified $730 million in change orders that
  potentially could have involved design errors.

We would appreciate quarterly updates from your staff to keep us advised of
progress in ensuring that the Project resolves cost recovery items in a timely and
cost-effective manner. We plan to report periodically to Congressman Capuano
and Chairman Young about the progress being made.

If you have any questions or are in need of further assistance, please do not
hesitate to contact me at (202) 366-1959, or Todd J. Zinser, Deputy Inspector
General, at (202) 366-6767.

                                        #
cc: Secretary
    Deputy Secretary
    DOT Chief of Staff
